<html>
<title> - HEARING ON THE DEPARTMENT OF VETERANS AFFAIRS� NATIONAL CEMETERY ADMINISTRATION Wednesday, April 20, 2005 U.S. House of Representatives, Subcommittee on Disability Assistance and Memorial Affairs, Committee on Veterans� Affairs, Washington, D.C. The Subcommittee met, pursuant to notice, at 10:05 a.m., in Room 334, Cannon House Office Building, Hon. Jeff Miller [Chairman of the Subcommittee] presiding. Present: Representatives Miller, Berkley, Evans, and Udall. opening statement of Chairman Miller Mr. Miller. The hearing will come to order. Good morning, everybody. This is the first hearing of our Subcommittee on Disability Assistance and Memorial Affairs, and Ranking Member Berkley and I want to add our personal welcome to each of you for being here this morning. I�d like to remind everyone that the audio portion of this Subcommittee hearing is being broadcast live around the world via the Internet, and also the hearing is being recorded without any additional natural sound in the background for play over our Committee�s award-winning website. We are meeting today to examine the policy and operational issues facing the National Cemetery Administration</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
HEARING ON THE DEPARTMENT OF VETERANS AFFAIRS� NATIONAL CEMETERY 
 ADMINISTRATION

Wednesday, April 20, 2005

U.S. House of Representatives,
Subcommittee on Disability Assistance and
 Memorial Affairs,
Committee on Veterans� Affairs,
Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller [Chairman of 
the Subcommittee] presiding.
    Present:  Representatives Miller, Berkley, Evans, and Udall.

opening statement of Chairman Miller

    Mr. Miller. The hearing will come to order.
    Good morning, everybody.
   This is the first hearing of our Subcommittee on Disability 
Assistance and Memorial Affairs, and Ranking Member Berkley and I want 
to add our personal welcome to each of you for being here this morning.
    I�d like to remind everyone that the audio portion of this 
Subcommittee hearing is being broadcast live around the world via the 
 Internet, and also the hearing is being recorded without any 
additional natural sound in the background for play over our 
Committee�s award-winning website.
    We are meeting today to examine the policy and operational issues 
facing the National Cemetery Administration -- including the State 
Cemetery Grants Program -- as well as the efforts the NCA is taking to 
address the major and minor restoration projects that were identified 
in 2002 by the Logistics Management Institute.
    I�m pleased to say that it appears that there are no obvious 
problems with the National Cemetery Administration.
     In fact, in a 2004 survey of government agencies and private 
 organizations, NCA received a higher rating than an agency or 
organization had ever received -- that being 95 out of a possible 100 
points -- and 94 percent of the respondents in fiscal year 2004 rated 
the quality of service provided by the national cemeteries as excellent.
    As well, the states seem to be pleased with the State Cemetery 
Grants Program, which Congress made permanent in 2003 with Public Law 
108-193.
    However, I would presume there are areas that can be improved upon.
    As you may be aware, the Committee, in its Budget Views and 
Estimates for Fiscal Year 2006, requested an additional $45.6 million 
for cemetery restoration and repair projects.  This is an area where I 
have a particular interest, and look forward to working with the NCA to 
ensure we hold firm to the National Shrine Commitment.
    I look forward to hearing from each of our witnesses here today.
    And at this time, I recognize the Ranking Member, Ms. Berkley, for 
any comments she may have.

opening statement of Hon. Shelley Berkley

    Ms. Berkley. Thank you, Mr. Chairman.
    And I also want to thank you for holding this hearing on the 
National Cemetery Administration, as our first hearing of the 
Subcommittee this Congress.  I think that demonstrates the importance 
and significance we place on this issue.
    Our veterans have earned a dignified and serene resting place.
    The written testimony of our nation�s funeral directors and 
recognition by the 2004 American Customer Satisfaction Index confirm 
that the VA�s National Cemetery Administration has worked with 
compassion and diligence to serve the needs of those who have served 
this nation with great distinction.
    Nevada does not have a national cemetery, but we do have two 
remarkably beautiful state cemeteries, one in Fernley, which serves 
Northern Nevada; one in Boulder City, that serves Southern Nevada, the 
Las Vegas area, which I�m very familiar with and spend a great deal of 
time at that cemetery.
    The Southern Nevada Veterans� Memorial Cemetery opened in 1991 and 
is the second-busiest state cemetery in the nation.
    It currently has 17,000 veterans buried there, and as more and more 
older veterans move to the Southern Nevada area, and we have the 
fastest-growing veterans population in the United States, the demand 
for burial spaces will continue to grow.
    In order to honor these veterans and their families, we must 
provide, we simply must provide adequate support for both national and 
state cemeteries.
    I believe that we should be increasing the plot allowance and 
burial benefits provided to the families of deceased servicemembers, 
and to that end I have introduced legislation, H.R. 805, the �Veterans� 
Burial Benefits Improvement Act of 2005,� to do so.
    I remember distinctly when I was a candidate in 1997 and 1998 meeting 
with veterans� organizations and families who shared stories with me of 
how difficult it was to bury their loved one on the amount of money that 
we allocate.
    We have not kept up with inflation, and the numbers in 1973, which 
were very adequate at that time, simply are no longer adequate now.
    In addition, I am concerned that the VA may be too restrictive in 
its interpretation of who can be buried in a veterans� cemetery.  I 
hope the VA will address whether a state can provide a section of a 
veterans� cemetery for those who are veterans under state law or veterans 
of the National Guard or Reserve without active service.
    And again, I want to thank all of you for being here.  I�m anxious 
to hear your testimony, and I look forward to it.
    Thank you.
    Mr. Miller. Thank you, Ms. Berkley.
    Mr. Evans?

opening statement of Hon. Lane Evans

    Mr. Evans. Thank you, Mr. Chairman.
    I appreciate your holding this hearing, as well. It�s important 
for us to continually insist that we have the most efficient and 
well-run cemeteries across the world, and I know we do.  We do have a 
great cemetery system, part of it in Europe, with our forces.
    So we know how tough things can be, but we want to make it more 
accessible and open to people who don�t often get the time to get out 
to those burial sites.
   So perhaps today we�ll get some people who have been through these 
things and who have an interest in improving and maintaining the 
management, as they do so well in my district.
    Thank you, Mr. Chairman.  I look forward to the testimony of 
our witnesses.
    [The statement of Hon. Lane Evans appears on p. 33]
    Mr. Miller. Thank you for your comments, Mr. Evans.
    Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    I appreciate the opportunity for this hearing.
   During the last Congress, I introduced a bill called the "Native 
Americans Veterans� Cemetery Act."  This legislation makes all Native 
American tribes eligible to apply for state cemetery grants.
    As you know, under current law, only states are eligible for 
veterans� cemetery grants.  Then Secretary Anthony Principi sent me a 
letter stating he strongly supported this bill�s enactment.
    So when we get to the question section, I�d like to ask you a 
little bit about that and I also want to inquire with regard to the 
burial of rural veterans, because I know that we have many more 
veterans that are dying that are from rural areas than from urban 
areas.  I think the numbers are almost two to one.
    So I appreciate the opportunity to hear from you today, and from 
the Chairman, for doing this hearing, and yield back.
    Mr. Miller. Thank you very much.
    I�d like to welcome the first panel to the table today.
    Mr. Richard Wannemacher is Acting Under Secretary for Memorial 
Affairs, and he is accompanied by Daniel Tucker, Director of the 
Office of Finance and Planning at NCA and Mr. William Jayne, Director 
of the State Cemetery Grants Service.
    For your information, Mr. Wannemacher was named Acting Under 
Secretary for Memorial Affairs on January 31st of 2005.  He served as 
Acting Deputy Under Secretary for Memorial Affairs beginning in June 
of 2003, and prior to that he was the senior advisor to the Under 
Secretary at NCA, and has also served as the Deputy Assistant Secretary 
for Legislative Affairs in the Department of Veterans Affairs.
    He served in the U.S. Navy from 1967 to 1969, when he was medically 
 retired after receiving multiple shell fragment wounds from an enemy 
satchel charge explosion.
    Mr. Wannemacher, we welcome you.  You may begin when you are ready, 
 please.

STATEMENT OF RICHARD A. WANNEMACHER, JR., ACT-
    ING UNDER SECRETARY FOR MEMORIAL AFFAIRS, NA-
    TIONAL CEMETERY ADMINISTRATION, DEPARTMENT 
    OF VETERANS� AFFAIRS, ACCOMPANIED BY DANIEL
    TUCKER, DIRECTOR, OFFICE OF FINANCE AND PLAN-
    NING AND CHIEF FINANCIAL OFFICER, NATIONAL 
    CEMETERY ADMINISTRATION, AND G. WILLIAM 
    JAYNE, DIRECTOR, STATE CEMETERY GRANTS SER-
    VICE, NATIONAL CEMETERY ADMINISTRATION

    Mr. Wannemacher. Thank you, sir, and good morning, Mr. Chairman 
and members of the Subcommittee.
    I appreciate the opportunity to be here today to discuss with you 
the memorial affairs that are provided by the Department of Veterans� 
Affairs.
    I am accompanied, as you noted, by Dan Tucker, director of the 
Office of Finance and Planning, and he�s also NCA�s chief financial 
officer, and Mr. Bill Jayne, director of State Cemetery Grants Service.
    I would like to submit my written testimony for the record, if I 
could.
    Mr. Chairman, NCA maintains more than 2.6 million gravesites in 
120 national cemeteries.  Last year, we provided more than 350,000 
headstones and markers, as well, and issued more than 436,000 
presidential memorial certificates honoring our nation�s heroes, the 
men and the women who wore the uniform of the United States in defense 
of a free and democratic America.
    At the current time, VA is within the largest expansion of the 
National Cemetery Administration since the Civil War, with 11 new 
cemeteries on the books in the various construction phases.
    NCA�s primary mission is to ensure that the burial needs of 
veterans and their families are met, and with the annual interment and 
death rates rising, there is going to be 676,000 veterans in 2008 that 
expire.
    As VA deaths increase, as veterans� deaths increase, and new 
national cemeteries are opened, NCA projects increases in the number 
of annual interments from the current 93,000 in 2004 to 115,000 in 
2010.  This will be an increase of 24 percent.
    We are also meeting the needs of families who have lost a loved 
one while serving overseas on the war on terror. 
    As of March of this year, 273 servicemembers killed in Iraq or 
Afghanistan have been interred in either a national or a state 
veterans� cemetery.
    Our ability to provide reasonable access to burial options is a 
critical measures of the effectiveness of our service delivery.  
Currently, 75 percent of veterans reside within 75 miles of a national 
or state veterans� cemetery, and our goal is to increase this to 
90 percent by the year 2010.
    I would like to update you on the progress that we�ve been 
utilizing in establishing 11 national cemeteries. 
    Over the next two years, five new cemeteries will begin serving 
veterans in the areas of Atlanta, Detroit, Pittsburgh, Sacramento, 
and South Florida.
    As directed by the National Cemetery Expansion Act, we are also 
 establishing six additional national cemeteries in California, 
Alabama, South Carolina, Pennsylvania, and Florida.  Our goal is to 
open six new cemeteries by the end of 2009.
    We will continue to expand our existing national cemeteries by 
acquiring additional land and completing development projects.  We 
have a number of projects underway to expand the life cycle of 
several national cemeteries.
    We�ve also been implementing operational efficiencies throughout 
our system in order to maximize the amount of burial space that we can 
get at our national cemeteries.
    This includes the use of grave liners installed at the time of 
 construction and the greater use of columbaria for the interment of 
cremated remains.
    Through the State Cemetery Grants Program, NCA funds up to 100 
percent of the cost to establish, expand, or improve state veterans� 
 cemeteries.
    Since the establishment by Congress in 1978, the program has 
awarded 140 grants totalling more than $215 million for 62 cemeteries.
    In 2004, state veterans� cemeteries provided more than 19,000 
gravesites.
    In response to legislation that raised the amount of funding we 
can provide, state interest in the program has increased significantly. 
  Since 2001, 17 new state veterans� cemeteries have opened in 12 
states.
    With the opening of Idaho�s state veterans� cemetery, we are 
pleased to report that there�s a national or a state veterans� 
cemetery in every state of the union.
    Another NCA statutory mandate is to maintain our national 
cemeteries as national shrines.  Our national cemeteries carry 
expectations of appearance and set them apart from our civilian 
counterparts.  
    The 2002 congressionally mandated report entitled �National 
Shrine Commitment� provided the first independent study, system-wide 
 assessment of the condition of VA national cemeteries, and it 
identified 928 projects with an estimated cost of $280 million to 
fulfill.
    Through 2004, $77 million of these repair projects and costs 
have been addressed.  NCA has completed 89 of the identified projects 
and work has been initiated in 151 additional projects, including 
several large-scale gravesite renovation projects.
    NCA is making steady progress and using multi-faceted strategy to 
address cemetery maintenance and repair needs.
    For example, we�ve established a comprehensive set of operational 
 standards to provide guidance and direction for maintaining VA 
cemeteries as national shrines.  These standards provide quantifiable 
goals and expectations that are applied at all of our national 
cemeteries, both open and closed.
    We also continue to focus on meeting the burial needs of veterans 
as well by fulfilling the maintenance needs of our cemeteries.
    We have also undertaken numerous related projects which I�ve 
highlighted in my written statement.
    These accomplishments include our improvement in timeliness of 
marking graves in national cemeteries; the establishment of a 
centralized training center for our employees, and launching a 
web-based nationwide gravesite locater system, and formalized a 
research and development program within NCA.
    Finally, we are most proud of the results, as you noted, of our 
2004 American Customer Satisfaction Index Survey.  NCA did achieve 
a customer satisfaction rating of 95 out of a possible 100 points for 
the national cemeteries, and this is the highest score ever received 
by either a federal agency or a private organization.
    The outstanding results are a testament to the dedication and 
hard work of NCA�s employees as they serve veterans and their families 
during difficult and emotional times.
    I want to thank you for the opportunity to share my views, both 
written and oral, and I stand ready to address any questions or 
concerns that you may have.
    [The statement of Richard A. Wannemacher, Jr. appears on p. 34]

    Mr. Miller. Thank you very much for your testimony today.
    Several of us have questions.
    I�d like to start off by saying that in your testimony, you had 
said that the number of annual interments are expected to increase 
by 24 percent between 2004 and 2010.
    Mr. Wannemacher. Mm-hmm.
    Mr. Miller. And in 2006 this year, you ask for an additional 
13 FTE.
    My question is, in order to maintain your current level of 
customer satisfaction, do you foresee requiring additional FTE as 
demand for your services increases, and if so, are there plans to 
ramp up those levels in the future?
    Mr. Wannemacher. We believe that this year the 2006 budget 
submission will adequately serve the needs of the National Cemetery 
 Administration in the growth period.  The 2007 may be completely 
different.
    But the request that we presented and that was accepted by the 
President and submitted to Congress is adequate to serve our needs.
    Mr. Miller. You also talked about 89 restoration projects having 
been completed and 151 other projects underway.
    Of course, there are 928 projects out there, so at this pace, how 
long do you anticipate, given the current pace to finish all of the 
projects?
    Mr. Wannemacher. With the steady progress that we�ve already made, 
and one fourth of the projects have been completed to date, we feel 
that we�re on a steady scale to be able to complete those by 2009, 
2010.
    Mr. Miller. Are other maintenance projects being deferred because 
of this ongoing work, or is this in addition to your regular work 
schedule?
    Mr. Wannemacher. This is in addition to regular work schedule, 
sir.
    Mr. Miller. Could you tell us a little about the -- I haven�t had 
an opportunity to go there, but a little bit about the NCA training 
center?
    Some of the Committee members may want to know a little bit about 
that.  I think we may make a site visit there sometime in the near 
future.
    Mr. Wannemacher. The Committee is more than welcome.
    I had the opportunity to be out there earlier this year, and we 
were at that time putting together a class of candidates for director 
 training, assistant director training, and those individuals received 
the best of the best when it came to instruction.
    Bill Jayne from the State Cemetery Grants Program was out there 
to make them aware of the State Cemetery Grants Program.
    Dan Tucker was out there to assist them.  Steve Merrill, who is 
my deputy right now, the field director was out there.
     And what we�ve done, we�ve put together courses that assist 
veterans in -- our employees in meetings the needs.
  We�re also working with the VA Chaplain Service in order to 
accommodate the work that is required, but also the personal aspect 
in dealing with death and dying on a regular basis.
    Our employees are sometimes just as effective as the families 
themselves.
    So in developing coping skills, we�re working on that.
    But this training center is going to be more than just training 
the assistant directors and directors.  We�re also putting together 
training to train ground maintenance personnel, cemetery 
representatives, everyone within the system.
    All of the employees of the National Cemetery Administration will 
have an opportunity to go there and receive training so that they can 
better serve the veterans that we serve.
    Mr. Miller. Thank you very much.
    Ms. Berkley?
    Ms. Berkley. Thank you, Mr. Chairman.
    I have an absolutely beautiful cemetery right outside my district, 
and I�m there quite often for various ceremonies and for private 
burials, as well, and I think they do just a remarkable job.
    Since I only have state cemeteries in my state, of course, I�m 
 particularly interested in that.
    If the VA does not receive funding for additional state cemeteries, 
how long do you think it would take for the applications that are 
currently pending to obtain funding?  If we don�t provide adequate 
funding in this budget, how much longer would be have to wait?
    Mr. Wannemacher. I�ll let Bill Jayne address that.
    But the 2006 budget submission will address the current needs, the 
current pre-applications, but Bill, if you�ll share that?
    Mr. Jayne. Yes, ma�am.
    We have -- step back a second.
    We use a process where we start with what we call a pre-application 
from the state, and the purpose of that pre-application is to open up 
the lines of communication with VA and to assess these projects, 
whether they�re valid or not, and to refine the scope of the projects.
    Then we go through a process that usually takes, at best, a year 
sometimes two to three years, of in effect perfecting that pre-
application, and the states need to meet all of our requirements for 
a grant before we actually award a grant.
    So we�ve got 39 pre-applications on hand right now with an 
estimated cost of about 140 million, but not all of those are ready to 
be funded right now.
    And what has happened over the past few years is that what happens 
is that usually these pre-applications don�t follow a very smooth, 
predictable course.  Some go faster than others.  Some take much longer 
than we expected.
    So with that process, in effect, we�ve been able, with the $32-
million-a-year appropriation, to address the most important needs of 
the projects that are ready to be funded, the ones that have met all 
of our requirements, and that includes some important expansion and 
improvement projects such as one we�ve got working right now at Boulder 
City, where we�re going to put in crypts and columbaria and a new 
maintenance building, that�s more adequate to their workload.
    Ms. Berkley. Thank you for that.
    Let me ask you something.  If the state goes ahead and allocates 
money for maintenance but there�s -- but VA funding is not available, 
what happens to the state money? What happens in that case?
    Mr. Jayne. That would be a state matter.  If they appropriate 
money at the state level to operate a new cemetery, and that cemetery 
is not built, I would assume that under the state budget they would 
reprogram that money or something like that.
    Ms. Berkley. Okay.
    If a state wanted to designate -- and I mentioned this in my 
opening remarks -- if a state wanted to designate a distinct portion 
of a state veterans� cemetery for use by veterans recognized under 
state law but not federal law, under what conditions could that be 
done?
    Mr. Jayne. Currently, the law authorizes us to only provide a 
grant for cemeteries that are operated solely for veterans as defined 
under Title 38, and eligible dependents and so on.
    So in general, we would probably not be able to assist a state in 
building a facility that would provide services for people who are not 
 eligible for burial under Title 38.
    Ms. Berkley. Let me ask you something.
    If the state decides to set aside a small portion of the state 
cemetery, would the feds have any problem with that, if they paid for 
it and funded it; and do you see any circumstances where somebody with 
the National Guard or Reserve who has served with distinction but may 
not fall into the federal guidelines or federal definition do you see 
any time when it would be appropriate to bury them in the veterans� 
cemetery?
    Mr. Jayne. Well, your first question about a facility that would 
be built totally with state funds and operated totally with state 
funds, I think we�d have to look at --
    Ms. Berkley. Well, not actually all state funds. It would be a 
similar situation to what�s happening in Boulder City, which is not 
solely state funds.
    Mr. Jayne. Right.
    That would be -- the plot allowance issue for operations would be 
a separate question.  I would assume that, you know, the plot 
allowance is payable on behalf of a veteran as defined under Title 38, 
so the plot allowance would not be paid for someone who is ineligible.
    But as far as grant funds for construction, I don�t think we could 
award grant funds, but if the state were to build a separate, adjacent 
 facility, I think we�d have to look at the plans to be sure but 
potentially something like that could be done.
    But maybe perhaps the entire issue of eligibility is one that needs 
to be looked at perhaps by the Committee.
    Ms. Berkley. Okay.
    And if I could have just one more minute?
    Mr. Miller. Sure.
    Ms. Berkley. It�s come to my attention, and we received some 
inquiries about this, so let me share with you what the inquiry was.
    Is there a uniform procedure, or should there be a uniform procedure 
for contacting national cemeteries on weekends or holidays in order to 
 schedule services for the following weekday?
    I received some information that it�s not uniform throughout the 
United States and it creates some confusion.
    Mr. Wannemacher. Well, it is uniform.
    The funeral directors would contact the cemetery where they 
normally would contact, and that phone line would link up to St. Louis, 
 Missouri.
    We have a hub in St. Louis, Missouri that�s staffed on weekends and 
 holidays, and they take care of all of the weekend arrangements, and 
then what they do is contact the cemetery and tell them what is planned.
    Ms. Berkley. Okay.  Thank you very much.
    Mr. Miller. Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    As a member who represents a rural district, I�m concerned that the 
policy requiring 175,000 veterans within a 75-mile radius adversely 
impacts rural veterans, recent research showing that veterans from 
rural areas are dying at twice the rate of those from cities and 
suburbs.
    What can be done to provide a dignified resting place for our 
rural veterans?
    Mr. Wannemacher. The National Cemetery Administration for the 
construction of the national cemeteries, you�re correct, the 75-mile, 
170,000 veteran populations.
    Well, that�s where our State Cemetery Grants Program comes in, to 
address those programs in areas where there aren�t sufficient veterans 
 residing.
    But I also want to tell you, Congressman, that National Cemetery 
 Administration issues with pride and dignity headstones for every 
veteran�s grave, and those headstones are sent to that cemetery for 
placement.
    We also issue presidential memorial certificates in order to 
memorialize that individual veteran�s service to his country.
    What our goal is, by 2006 -- or 2009, I�m sorry -- we�ll be 
reaching 90 percent of the veterans within 75 miles with either a 
state or a national cemetery.
    But the placement of those individual headstones throughout the 
nation continues to honor with dignity the sacrifice of veterans.
    Mr. Udall. Thank you.
    In July of 2002, some staff from the VA�s Office of the Under 
Secretary of Memorial Affairs visited New Mexico to do an initial 
site review for a new national cemetery in New Mexico.
    Where in your list of planned new national cemeteries does New 
Mexico fall?  What is the timeline?
    I have many constituents who are interested in being involved in 
the site selection process for a new national cemetery.
    Who participates in this process, and what kind of public input 
from veterans do you plan?
    Mr. Wannemacher. When that assessment was delivered, National 
Cemetery Administration was responding to legislation that was put 
forward by Congressman Wilson, and her legislation requested that NCA, 
the National Cemetery Administration, look at burial option within the 
 Albuquerque area.
    The Albuquerque area is served by the national cemetery in Santa Fe, 
and with that, with the Santa Fe, the expansion that�s going on out 
there, we feel that those veterans in Albuquerque are well served.
    We did do a study and came up, but there�s no priorities list or 
anything.  All we were doing is responding to congressional mandate to 
look into the cemetery.
    Mr. Udall. When you get ready to do a new national cemetery, what 
kind of public input do veterans have?  I mean, what is your 
traditional way of doing that?
    Mr. Wannemacher. There will be full public input.
    Once the -- we utilize the Census results, and then those Census 
results are updated through the VA�s Office of Actuary.
    And so when we find a situation, then we go and go to the public, 
we talk to the funeral directors, we talk to veterans service 
organizations, we talk to everyone, because we don�t want to create 
something that isn�t going to be well utilized within the community.
    Mr. Udall. Thank you.
    During the last Congress, I introduced a bill called the ``Native 
American Veterans� Cemetery Act.��  This legislation makes all Native 
American tribes eligible to apply for state cemetery grants.
    As you know, under current law, only states are eligible for 
veterans� cemetery grants.
    As I mentioned earlier, then Secretary Principi sent a letter to 
me stating he strongly supported this bill�s enactment.
    What action is needed for the VA to provide the opportunity to 
tribes to apply for state cemetery grants; what obstacles do you see 
to allowing tribes to apply for state cemetery grants?
    Mr. Wannemacher. As you noted, Secretary Principi did, and the 
 administration did support H.R. 2983.
    This year, we haven�t been asked to respond to your current 
legislation. H.R. 601.
    What the criteria is is that the individual entity would have to 
meet the requirements for all grants, whether it be a state or 
territory.  There are certain criteria, and those are posted within 
public record, Directive -- was it 39? -- 38 CFR Part 39.
    If they meet that criteria, then they would be considered.
    Mr. Udall. Thank you.
    Thank you, Mr. Chairman.
    Mr. Miller. Thank you very much, Mr. Wannemacher, Mr. Jayne, and 
Mr. Tucker, for being here.  This Committee and I commend the role that 
you play, along with your staff, in assisting the survivors of our 
 servicemembers and veterans.  I appreciate your testimony and do look 
forward to working with you in the future.
    You�re excused.
    I�d like to ask the next panel, if they would, to come forward.
    Members and guests, retired Brigadier General Leslie Beavers is 
the president of the National Association of State Directors of 
Veterans� Affairs.
    He is a 1960 graduate of the Military Academy at West Point, sir, 
and has a distinguished career in the United States Army.
    His awards include the Legion of Merit, three Bronze Stars for 
valor, two Meritorious Service Medals, Air Medals, the Army 
Commendation Medal, the Army Achievement Medal, the Combat 
Infantryman�s Badge, the Parachutist Badge, the Department of Army 
Staff Badge, and Ranger qualification, which means he has spent at 
least one week in the Yellow River in my district, in Florida.
    Mr. John Fitch, Jr. is the Senior Vice President for Advocacy for 
the National Funeral Directors Association.
    He has a B.A. from the University of Virginia and an M.A. from the 
 Industrial College of the Armed Forces, and a law degree from the 
University of Mississippi.
    Mr. Fitch served nine years as an officer in the U.S. Army with 
active duty assignments in West Germany and Vietnam.
    Mr. Paul Elvig is here in his capacity as Vice President of 
Products and Services and Chairman of the Federal Affairs Subcommittee 
for the International Cemetery and Funeral Association.  He�s currently 
the president and CEO of Evergreen-Washelli Funeral Home and Cemetery 
in Seattle, Washington.
    Mr. Elvig has served as executive director of both the Washington 
State Cemetery Board and the Washington State Funeral Directors and 
Embalmers Board, and is a founder of the North America Cemetery 
Regulators Association.
    Mr. Richard Jones is legislative director for AMVETS.
    Mr. Jones has spent almost 20 years working in various staff 
positions in the House and the Senate, including several years on the 
staff of this very Committee.
    He is a veteran of the U.S. Army, where he served as a medical 
specialist during the Vietnam era.
    We�d like to welcome all of you today.
    And General Beavers, you may begin.

STATEMENTS OF BRIGADIER GENERAL LESLIE E. BEA-
    VERS, U.S. ARMY (RETIRED), PRESIDENT, NATIONAL
    ASSOCIATION OF STATE DIRECTORS OF VETERANS�
    AFFAIRS (NASDVA) AND COMMISSIONER, KENTUCKY
    DEPARTMENT OF VETERANS� AFFAIRS, ACCOMPAN-
    IED BY STEVE ABEL, STATE DIRECTOR, NEW JERSEY];
    JOHN H. FITCH, JR., SENIOR VICE PRESIDENT FOR AD-
    VOCACY, NATIONAL FUNERAL DIRECTORS ASSOCIA-
    TION; PAUL M. ELVIG, VICE PRESIDENT OF PRODUCTS
    AND SERVICES AND CHAIRMAN OF THE FEDERAL AF-
    FAIRS SUBCOMMITTEE, INTERNATIONAL CEMETERY
    AND FUNERAL ASSOCIATION (ICFA) AND PRESIDENT
    AND CEO OF EVERGREEN-WASHELLI FUNERAL HOME 
    AND CEMETERY, SEATTLE, WASHINGTON; AND RICH-
    ARD �RICK� JONES, NATIONAL LEGISLATIVE DIREC-
    TOR, AMVETS

STATEMENT OF BRIGADIER GENERAL LESLIE E. BEAVERS

    Gen. Beavers. Thank you, Mr. Chairman.
    I have with me this morning also Mr. Steve Abel, the state 
director from New Jersey, and the reason I invited him, he had the 
largest state cemetery operation in all 50 states, so he might be 
able to answer some of the questions, as well.
    It�s an honor for me to represent the 50 States, the Commonwealths, 
and the Territories, and I think in my oral comments I�ll address 
some of the questions that have been previously asked, and I would 
like to submit my statement for the record.
    Memorial affairs is an area in which the states have been highly 
effective participants with the federal VA with the inception of the 
State Cemetery Grants Program.
    I think of all the grant programs that I�ve been associated with 
as a State Director, this is the most effective and the best managed, 
and I applaud Mr. Bill Jayne on the cooperation and the coordination 
that he effects with the State Directors.  It is a highly effective 
program.
    I think they�ve also earned the National Cemetery Administration 
award of "excellence" as a governmental agency.
    In our relationship with the national cemeteries in our states, 
they truly are effective, and the veterans are highly appreciative 
of the services that they provide and what we�re doing in the state 
cemeteries.
    When you look at it over the history of this grant program, 139 
grants have been awarded, and that�s only been an expenditure of 
federal dollars of 215 million, for a highly sensitive and memorial 
service that we�re providing for those who served our country.
    We currently now have 32 states and Guam involved in the cemetery 
grant program, and it�s allowed us to provide gravesites for veterans 
in those areas where VA national cemeteries are unable to fully meet 
the veterans� needs, particularly in the rural and remote areas of the 
 country, areas that have concentrated military, veteran, and retiree 
 populations, such as I address at Fort Campbell in Hopkinsville, our 
first state veterans� cemetery in the Commonwealth of Kentucky, and 
I hand-carried with me today the plans for Fort Knox, my second state 
 veterans� cemetery, where I have a high retiree and a veteran 
population in the Louisville area.
    I think the cemetery grant program, the State Cemetery Grants 
Program also serves those moderate sized population areas such as 
Memphis, Nashville, Little Rock, and Las Vegas, so it is a real 
compliment and a supplement to the national cemetery system.
    I disagree with my federal colleagues about the budgeting for 
fiscal year 2006.  The proposed appropriation of 32 million is 
insufficient, I think, to address the 40 pre-applications, which 
total some 160 million. 
    States have to make a big commitment to receive a grant.  We have 
to get the land, often purchased by the veterans� service 
organizations, or transfer federal land, like I have at Fort Knox.
    We have to do a full design, which takes A&E front money, as well 
as a commitment in our state budgets to operate these.
    And that�s often the biggest question we get from our general 
assembly about our commitment to the perpetual care of these state 
veterans� cemeteries.
    So I strongly think that the State Cemetery Grants Program should 
be increased to 50 million so that we don�t generate a backlog of 
these projects similar to what we had with the nursing home grant 
program.
    I know that they are better prepared to answer that question, 
from our view, as state directors, I don�t think we should hold up 
these projects for lack of funding with that commitment that we�ve 
made with our general assemblies to go forward, and our governors.
    Next, I�d like to address the plot allowance issue, because it 
directly ties into our operational costs. 
    The operational cost, the average we figured for an interment is 
around $2,000 per interment, and our plot allowance of only $300 is 
the only offset that we get in the state for operational costs, which 
is only covering 15 percent.
    The state directors I think would support legislation that�s 
proposed for an increase in that plot allowance, because it would go 
directly to offsetting that operational cost, and I know that there�s 
H.R. 831 and the one that you mentioned, Congresswoman Berkley, and 
we would support an increase in plot allowance, and I propose that 
that should be $1,000.
    Next, I�d like to address the question about eligibility for 
interment.
    You know, our nation has an obligation to honor and memorialize 
the service of Reserve component and National Guard members for 
their military service, as well, particularly since the all-volunteer 
force of 1973.
    Currently, only those Reserve and Guard members who have earned 
veteran status by being federalized, or those that are retired, or 
those who suffer injury or disease from performing training can be 
interred in a national cemetery system.
    If a state inters an ineligible Reservist or Guard member in 
their veterans� cemetery, then we�re no longer eligible to receive 
the federal cemetery grant.
    We believe it is time to amend the law to include the following 
provision, and I offer this provision:
    "Any member of the Reserve component or National Guard who 
originally enlisted on or after July 1, 1973 and is currently serving 
or was discharged or released therefrom under conditions other than 
 dishonorable."
    I think that amendment in Title 38 would clear up the issue of 
eligibility for our Guard and Reservists who are serving so well in 
this war on terrorism.
    So I offer that provision for the record.
    In terms of the operational grant, in lieu of plot allowance, then 
I think under the purview of the state cemetery grant program, we 
could have an operational grant.
    Because their program is so well-managed, I would think that the 
cemetery grant program could include an operational grant component 
for the states, based upon the size and the burial rates, and that 
could be determined about what appropriate level, but with the plot 
allowance being increased, then that would be offset with that 
recommendation.
    In terms of burial honors, I�d like to go beyond the State Cemetery 
Grants Program and say it is so important when you attend these 
services, what occurs at a committal shelter.
    This has been a labor of love for me in terms of establishing 
State Cemetery Grants Programs in our state, and I worked on it for 
four years.
    And when we had our first burial of a black NCO E-6, Lemuel Graham, 
who had entered the Army when it was segregated, with his distinguished 
spouse present, and when I was there and we presented her flag and we 
made our first burial, I knew that we had done the right thing.
    Secondly, the second burial that first day on 1 March of 2002 was 
the spouse of a retired Sergeant Major Matosky, the two of them had 
served for 30 years in the military as a team, and the only person 
present was their daughter, who had been taking care of both of them 
for the last five years.
    And the lady�s name was Tedi.  She was cremained, and we put her 
in the first columbarium niche, and it happened to be her birthday, 
and the daughter put a little Teddy Bear in the cremain niche.  I knew 
we were doing the right thing at that moment.
    And that�s why I pursue this program so strongly.
    In attending these, I think the honors that we provide at these 
services are so important.  The two-person detail the DOD is committed 
to from the service that they were in is so important to them.  We�re 
 fortunate in the Fort Campbell area to get the 101st to support us, 
and the VSOs also do a great job in the burial honors.
    But I think all retirees should get a seven-man detail, and not 
just a two-man detail based upon economics, and I know that�s tough 
on them right now because of their deployment rate.
    So Mr. Chairman, distinguished members of the Committee, we respect 
the important work that our colleagues in the federal VA do, 
particularly in this program, and I think we�re answering a service to 
our veterans who served us, and in so doing, we�re giving them a 
dignified and compassionate burial.
    In the states, what I would ask you to be mindful of, we have a 
fiscal crisis, as well, and this operational need that we have is 
important to us, just as you face the federal fiscal challenge.
    So that concludes my comments, Mr. Chairman, and I would be 
available for any questions.
    Thank you, sir.
    [The statement of Gen. Leslie E. Beavers appears on p. 43]

    Mr. Miller. Thank you very much, General.
    What I�d like to do is to go ahead and proceed through all of the 
panel if we could, and then go to questions. 
    So Mr. Fitch, you are recognized.

STATEMENT OF JOHN H. FITCH, JR.

    Mr. Fitch. Thank you, Mr. Chairman, members of the Subcommittee, 
for the opportunity to present the views of the National Funeral 
Directors Association on the NCA and the national cemetery system. 
    The National Funeral Directors Association represents more than 
13,000 funeral homes and over 21,000 licensed funeral directors and 
embalmers in all 50 states. 
    The average NFDA member is an independently owned and operated 
business with fewer than 10 employees and has been in the same family 
for over 60 years. 
    The NFDA has a great interest in the national cemetery system as 
our members provide both funeral and burial services for our veterans 
and their families on a daily basis. As a result, they use the national 
 cemeteries and state veterans� cemeteries very often.
    In a recent survey of our members on this question, we have 
received an almost unanimous response that our nation�s national 
cemeteries and state veterans� cemeteries operate efficiently, 
effectively, and with much compassion for those being buried there, as 
well as their families.
    Our members have found the management and operation of these 
cemeteries to be courteous, flexible, and accommodating to the needs of 
the funeral director and the family members of the deceased veterans. 
    As one of our members from Florida stated:
    "Being in Southwest Florida and with the amount of retired veterans 
that have come to our beautiful side of the state, we deal regularly 
with the Florida National Cemetery as well as many times with Arlington 
 National.
    "I couldn�t be more pleased with how we are taken care of when we 
call the Florida National Cemetery.  Everyone is pleasant, efficient, 
and knowledgeable, and the cemetery is kept up beautifully.�
    An Illinois member stated:
    "We use the Rock Island National Cemetery quite often.  In fact, I 
have expressed my desire to be buried there, since I am an eligible 
veteran of the Vietnam War.
    "I really do not know of any way to make improvements.  It is 
impossible to say enough good about the management, the way the 
families are treated, and the way funeral directors are treated.  
Please encourage the Veterans� Administration to leave it just as it 
is."
    And there are other examples of this in my testimony.
    I use these examples from around the country to illustrate that 
our national cemetery system and its operation and management from 
our members� standpoint is of the highest caliber.  Believe me, if 
it was not, they would say so.
    They tend to be very protective of the families they serve, and 
they want to ensure that they are treated with respect and dignity 
during all phases of the funeral and interment.
    I also received just yesterday a letter from Ken Knaus of Palm 
Mortuary who gives his regards, to say that, �The National Veterans� 
Cemetery in Riverside, California and the Southern Nevada Veterans� 
Cemetery provide a wonderful benefit for our women and men who have 
served so bravely and unselfishly.
    "We have assisted thousands of families over the years with their 
burials at veterans� cemeteries.  Families are very grateful for 
these services."
    And he sends his regards.
    While most of our members are well-satisfied with the services 
provided them, there are a couple who have said that there may be some 
 problems in their areas.
    One member from Texas who uses the DFW National Cemetery stated, 
and I think you addressed this issue earlier:
    "It has been a problem serving our families during the weekend 
hours.  Upon the death of a veteran on a Friday evening or on the 
weekends, we cannot make any notification to the national cemetery.
    �This prevents a family from making any gravesite service 
arrangements until the following Monday, which means the service won�t 
be held until Tuesday or Wednesday."
    That�s one example.
    One member talked about Arlington National Cemetery and indicated 
that his biggest concern is the fact that "Arlington National ...  
does not accept cremated remains from the Post Office."
    "It has presented a bit of a problem in having to send [the 
cremated remains] to another funeral home [in Washington, D.C. area] 
rather than directly to Arlington and thereby causing an additional 
charge that the families have to pay."
    Finally, the New Jersey State Funeral Directors Association has 
indicated that the "New Jersey veteran families are underserved by the 
 location of the Midatlantic National Cemeteries.
    "Funeral processions from [New Jersey] travel a minimum of three 
hours to the closest cemetery, Calverton, Arlington, or Indian Gap.  
Such excessive travel adds to the cost of the funeral and creates a 
travel burden on families who would like to visit the grave."
    Mr. Chairman, that concludes my testimony.  I�ll be happy to 
answer any questions.
    [The statement of John H. Fitch, Jr. appears on p. 46]
 
    Mr. Miller. Thank you very much, Mr. Fitch.
    Mr. Elvig.

STATEMENT OF PAUL M. ELVIG

    Mr. Elvig. Chairman Miller and Ranking Member Berkley, we thank 
you for the opportunity to be here and say hello from the private and 
the religious and the municipal cemeteries in America.
    The ICFA has approximately 6,700 members around the country and 
in a few other countries, and our concern is the same concern that 
this Committee has, and that is the obligation that we all have in 
this business, if you will, to provide the services forever.  That�s 
something that people just don�t seem to understand.  It is forever.
    It�s to that extent and to that end we want to compliment the Chair 
for the special effort being made towards the 900-plus projects that 
need to be addressed in the various maintenance issues of the national
 cemeteries, and we recognize that this is a type of an ongoing issue 
that you face now.
    We would also like to suggest that possibly you might look at the 
concept of endowed care.
    The private cemeteries, religious and municipal cemeteries have 
addressed this issue of endowment care. That�s where monies are set 
aside and only the earnings, the interest, if you will, is used to 
maintain a cemetery.
    We have found, I have found, having been the regulator nationally, 
 president of the Regulators Association, we have found that it seems 
to be the best assurance that cemeteries will continue to meet the 
community expectations and demands of their cemeteries.
    So we would urge that you might look at that in the future while 
you�re putting together the support you need for this year�s bill on 
the maintenance issues.
    We also would like to respectfully suggest that in the future you 
may consider readdressing the issue of providing veterans� families 
with a benefit that was stopped by Congress in 1990, and that was the 
burial allowance of $150.
    Many veterans who pass away have already had a spouse pass away 
and are buried possibly in a municipal or private or religious 
cemetery, and to tear that family apart seems almost cruel.
    The veterans� benefit of $150 which was used kept families 
together, gave families choices, and frankly, relieved the government, 
the Federal Government, of an ongoing obligation of maintenance that 
we just talked about.
    So we would urge that that be a look at again, as a possibility, 
to provide those veterans� families that have served us so well with 
the options and the choices they may wish to have.
    Also in 1990, Congress stepped away from the marker -- or shall 
we call it the government marker support -- whereby that if a person 
did not use a marker that was supplied by the government, the family 
was given an immediate wholesale cash allowance to apply it towards 
whatever method they would wish, whether it be cremation, 
memorialization, or in a crypt, or whatever type of final disposition 
the family may have chosen.
    So we would suggest that, in the future, so that you aren�t faced 
with this issue of all the time coming back with more projects that 
will be needed, we suggest that you visit the subject of endowing, 
we suggest that you visit the subject of reinstatement of the 
allotment for a veteran�s grave, and we suggest that you revisit the 
subject of matching on the memorial cost, the wholesale cost for a 
family that chooses to use something differently.
    We want to compliment the Committee for your attention to this 
issue.
    I know from having spoken to many legislatures and people around 
this country, getting attention paid to those who have gone on before 
us is a hard thing to do, and until you�ve sat and looked in the eyes 
of a family member who has lost someone, you really can�t respect 
what�s going on, and your participation shows it so, so much.
    We thank you for that, and we�re happy to answer any questions 
that you may have.
    [The prepared statement of Paul M. Elvig appears on p. 50]
 
    Mr. Miller. Thank you, Mr. Elvig.
    Mr. Jones, with AMVETS.

STATEMENT OF RICHARD ``RICK�� JONES

    Mr. Jones. Chairman Miller, Ranking Member Berkley, members of 
the Subcommittee, my name is Richard Jones, AMVETS legislative director.
    Mr. Chairman, we wish you well with your new Subcommittee.  You are 
well-staffed, and we want you to know that we stand ready, AMVETS and 
several other veterans� service organizations, to help in any way that 
you see appropriate.
    As you know, the NCA --National Cemetery Administration -- burial 
rate has begun to average more than 100,000 interments per year.  
Annual individual burials will peak in 2008.
    If the National Cemetery Administration is to continue its 
commitment to ensure national cemeteries remain dignified and 
respectful settings that honor our deceased veterans, there must 
be a comprehensive effort to greatly improve the condition, 
function, and appearance of national cemeteries.
    AMVETS strongly supports the full Committee�s recommendation that 
Congress establish a five-year $300 million program to restore and 
improve the condition and character of NCA and the cemeteries as 
part of the coming year�s operations budget.
    The NCA burial program calls for activation of six new cemeteries.
  The fiscal year 2005 budget has six cemeteries that have advance 
planning.
    We believe the completion of these new cemeteries that are on line 
will represent an 85 percent expansion according to VA of the number of
  gravesites available in the national cemetery system.  That is gauged 
from the baseline of 2001, which almost doubles the number of 
gravesites during the period.
    The National Cemetery Administration really faces two major 
challenges.
    First is, of course, to provide for the passing generation of men 
and women that defended freedom and democracy in World War II and 
Korea and Vietnam, and I think that, with your with congressional 
help, they�re on their way to doing that.
    The second is to ensure the maintenance of current cemeteries 
and the continued planning, design, and construction of world-class, 
quality cemeteries that honor our deceased veterans.  There�s where 
they need some assistance.
    As mentioned, AMVETS supports an accelerated shrine initiative.
    We�ve spoken previously about the project repair conditions that 
have accumulated over the past several years, and clearly, as any 
public facilities manager knows, failure to correct identified 
deficiencies in a timely fashion usually results, or often surely 
results in continued deterioration of the facilities and increasing 
costs related 
to necessary repair.
    We recommend that Congress and VA work together to establish an 
 accelerated time frame for addressing those projects.
    One more point that deserves comment is individual burial benefits 
used by veterans in church, community, and other private sector 
cemeteries, to include state cemeteries.
    We should not overlook the erosion of these earned benefits, 
Priority 8 or otherwise.  These are valiant men, brave women, who have 
served honorably in the military.
    AMVETS recommends Congress consider several legislative updates, 
one in particular, H.R. 805, sponsored and championed by Ranking Member 
 Berkley.  Here we have support for veterans who would desire burial in 
state facilities.
    We would ask that the plot allowance be increased to $745 from the 
current level of 300.
    We would also suggest an increase in service-connected burial 
benefits from the current level of $2,000 to $4,100.
    And we would note that often these service-connected deaths occur 
out of the normal death cycle, if you would. 
    A normal individual has a certain life period.  An injured veteran 
has a certain life period.  There are differences there.
    We would note that Congress has recognized the importance of 
providing money to those who are killed instantly in combat.  Some of 
those wounds are carried on in a shortened lifetime, and we would ask 
that you increase those benefits a modicum, as we said, some $4,100.  
Ms. Berkley�s bill has that figure.
    We would also ask that you increase the non-service connected 
benefit from the current level of $300 to $1,270.
    This benefit was last adjusted in 1978, and today it covers just 6 
percent of the burial expenses.  As you know, the inflation factor has 
been enormous over that period.
    To correct the erosion of inflation, we would ask that these 
benefits be indexed into the future to avoid a future erosion.
    Regarding the State Cemetery Grants Program, the program has 
helped develop more than 60 operating cemeteries across the country 
that have accounted for over 19,000 burials of veterans and their 
eligible family members.
    The program deserves your support and attention.  It allows states 
to work in concert with the NCA to plan, design, construct really top-
notch, first-class, quality cemeteries.
    And Mr. Chairman, we applaud the Subcommittee for holding this 
hearing.  We wish you well in your new duties with this new 
Subcommittee.  We�re pleased to be here before you today.
    And this concludes my statement.  I�ll be happy to answer any 
questions you might have.
    [The statement of Richard ``Rick�� Jones appears on p. 57]
 
    Mr. Miller. Thank you very much to the panel members.
    I have a couple of questions.
    Mr. Jones, thank you for all of your hard work and everything 
that AMVETS does to further the cause.
    As one of the authors of the Independent Budget section for NCA, 
you�re aware of the need for the repair at the national cemetery 
level and what this Subcommittee and Committee is trying to put forth 
in this budget year, and I believe that VSOs are very important 
stakeholders in this particular effort.
    Can you elaborate a little, if you will, on AMVETS or other VSOs, 
what you may be doing to help develop volunteer opportunities out there 
in conjunction with NCA?
    Mr. Jones. Our departments and posts across the nation are strong 
in their volunteer service to the National Cemetery Administration.
    We participate in Honor Guard, we participate in providing the 
delivery of flags to those family members who have buried loved ones.  
We work in conjunction, as best we�re able, with NCA to serve.
    As you know, NCA is very busy.  As mentioned just a moment ago, 
the death rate is accelerating, and the burial space, the time of the 
burials are multiple, so there�s a great need for volunteer work.
    And we at AMVETS, along with other service organizations, have 
many people who dedicate time and travel and sometimes that travel is 
amazing, when you speak with those people, the hours that they�re on 
the road to get to some of these facilities to provide support to NCA 
and support to the family.
    May I just mention one quick story, sir, talking about the 
sincerity of service at NCA?
    Not too long ago, Acting Secretary Wannemacher was at a facility 
where he noticed beyond the manicured grounds a small woodlot that 
had overgrown, and he looked in there and saw that there was a 
tombstone, the tombstone, was, of course, an unkept grave of a 
veteran, happened to be an AMVETS member, as I understand it, and he 
mentioned the situation to the personnel of the facility.
    Upon return, the facility had made the changes. They had rooted 
out the undergrowth and cleaned up the facility, and it was amazing 
upon hearing why that had gone unkept for a while.  It had simply 
fallen out of regular maintenance and gone unnoticed.  People thought 
that no one really cared.
    But someone did care, because shortly after the cleanup, 
Secretary Wannemacher received a letter thanking him for what he had 
done for their uncle�s gravesite.
    That is the sincerity that goes through the NCA system.  Not only 
do they receive a 95 percent rating, they really care, and it�s 
incredible to see.  And that�s just one story among many.
    I didn�t relate it very well, but I wanted to relate it.
    Mr. Miller. Thank you very much.
    General Beavers, you talked about trying to establish or have 
Congress establish a state veterans� cemetery operational grant 
program to assist states in the operational efforts of those 
cemeteries.
    Hearing that in these budget times at the state and federal 
level concerns me somewhat from the standpoint that it makes me wonder 
why the states may not be able to continue with their operational 
efforts as they should. 
    And my question to you is, do you see states balancing their 
budgets, if you will, on the backs of the operational needs of the 
state cemetery programs?
    Gen. Beavers. Sir, let me address it with several components.
    First of all, we want to maintain, in the state cemeteries, a 
national shrine status, as well, which takes a real commitment, both 
with personnel, but also with operational costs to maintain the 
facility. 
    So in my experience so far, my average operational cost for where 
we have a burial rate of roughly one or two a day at the Hopkinsville 
 facility, my anticipated operational cost for this coming year is 
$400,000, and that�s only five employees; and the plot allowance that 
we receive currently of only $300, simply buys the liner for that 
gravesite.
    So I get no commitment or no support from an operational standpoint, 
other than the state appropriated funds that I get for my department.
    So in lieu of an increase in plot allowance to meet that perpetual 
need, which is a burden that the state has accepted, and we face each 
biannual cycle of budget requests, then they obviously are looking 
ahead and saying, ``Okay, if you�re going to put five cemeteries in 
here, what�s going to be our cost annually to operate these?��  And, 
you know, that will go up each year with inflation.
    So all we�re asking for is some help.  That plot allowance 
currently doesn�t support any operational costs, as I indicated, so 
we�re looking at some mechanism, either an operational grant that 
wouldn�t cover the whole operational cost, but just a portion of it, 
like we do with per diem in the nursing homes, where the nursing homes
 are supported by about 31 percent of our cost of operation through the 
$59 that we get a day for the care of a veteran.
    We could have a similar program in the cemetery operation, where we 
could get an operational grant to support just a portion of that 
operational cost, or, in absence of that, with an increase in plot 
allowance, that would directly offset the operational cost.
    The plot allowance would be the simplest and the easiest way to do 
that.
    Mr. Miller. Please don�t take my questions as negative in any way.
    Gen. Beavers. No, sir.
    Mr. Miller. But isn�t that the whole idea of the state cemetery 
program, where the federal government does come in with the grant 
program, offers the ability to establish the cemetery, with the 
understanding that the state would thereby take the operational cost 
within their budgets?
    Gen. Beavers. That�s true, sir, and I think the commitment is made 
with that third element in the grant process.  You have to have the 
land.  You have to have your design.  And you have to have a commitment 
in your budget to operate it.  But we face that with every budget cycle.
    So that commitment has been made on the part of the states to 
operate them, and it�s a matter that we need some support, some help 
in view of our fiscal crisis with each state, and it varies by state.
    But the plot allowance would be the easiest way to do it.
    Mr. Miller. It sounds to me, though, that the states are not doing 
their part.
    Gen. Beavers. No, sir, I disagree.  I think we are doing our part, 
because we�ve increased the number of state veterans� cemeteries by 
38 percent since 1999.
    We�re committed to this program.  We see the value of it, 
particularly where it addresses rural areas and where we know the 
National Cemetery Administration will not be able to put in national 
 cemeteries.
    Mr. Miller. And I�m not being critical of your organization at all.  
I�m talking about the legislatures and the governors within the states 
and the appropriations process.
    Gen. Beavers. Well, it fits into the picture, sir, of a budget 
where you�re dealing with Medicaid shortfalls, you�re dealing with 
health care issues of the state, and you�re dealing with education.
    When you throw state veterans� cemetery operations in the mix of 
education and Medicaid, which are the big nugget issues in a state 
budget, then we have to fight for that operational cost.
    My experience in my state, in the Commonwealth of Kentucky, they 
have not resisted or turned against the support for the operational 
cost of these.  I�ve heard of no state director saying that he�s had 
trouble having that commitment from his general assembly.
    All we�re saying is that, as we go forward with budget crises, 
plot allowance or an operational grant would surely help us to 
maintain these at the national shrine status.
    Mr. Miller. Thank you very much, General.
    Gen. Beavers. Yes, sir.
    Mr. Miller. One more thing.
    Mr. Fitch.  Yes, sir.
    Mr. Jones. May I just add one thing?
    The plot allowance surely has eroded with inflation. I�m sure that 
when these states gauge what they can afford, part of that calculus is 
what the plot allowance is today and the expectation that Congress will 
retain a certain portion of that.
    So with the erosion of that plot allowance goes also an erosion of 
 potential support.  As you know, the plot allowance today is $300, and 
that is the same amount of benefit that was provided in 1973.
    Well, it has increased recently.  But it�s still only 6 percent of 
what was provided in 1973.
    Mr. Miller. And let the record reflect that I�m not referring to 
plot allowance increases.  I was directly--
    Gen. Beavers. Yes, sir.
    Mr. Miller. --talking about the operational program for state 
cemeteries whereby there would be a federal component in funding of 
that.
    And my questions are just from an informational standpoint.  I in 
no way was implying that the plot allowance was sufficient.
    I also would like to say to Mr. Fitch that I contacted Mr. Metzler 
out at Arlington, and they conducted 6,552 funerals last year in 
fiscal year 2004.  Given the large number of services out there, 
without question, there probably have been some scheduling errors, 
which you discussed.
    I would like to say that their response to me was, in an effort 
to alleviate some of these scheduling situations, they�ve added to 
their website the current day and three additional days forward of 
funeral information so that anybody can go on-line, check and see 
what the schedule is out there at Arlington.  They�ve hired additional 
staff members to assist in funeral arrangements.
    And I�m still wondering a little bit about the issue of receiving 
remains through the United States Postal Service.
    As you know, after September 11th, they stopped receiving cremated 
remains because they do not have a special handling facility.
    Certainly, there�s got to be a way to resolve that issue.  I don�t 
know how many cremated remains come to the cemetery on an annual basis, 
but it�s certainly an issue that this Subcommittee can look into and 
see if there�s a way that we can help solve that problem.
    Mr. Fitch. We would also be more than willing to work with Jack on 
solving this problem, as well.
    Mr. Miller. Very good.  Thank you very much.
    Ms. Berkley.
    Ms. Berkley. Thank you, Mr. Chairman.
    Mr. Fitch, when you talk to Ken Knaus, would you say hello for me?  
I will be residing with him in perpetuity when my time comes, because I 
 already have a plot.
    He does an extraordinary job, and he�s also a very good friend.
    I�m glad that the chairman -- the chairman actually brought up a 
couple of issues that I�d like to emphasize with my comments and my 
questions.
    I was surprised, because I had received the same testimony 
regarding the funeral director for the Dallas-Fort Worth National 
Cemetery that obviously had the problem in getting through on a 
weekend or holidays, and so I was surprised when Mr. Wannemacher 
explained that there was a uniform program or criteria.
    So I would hope that perhaps if a uniform criteria does exist, a 
uniform procedure, perhaps we ought to communicate that to all of 
our veterans� cemeteries and funeral directors across the country. 
  Apparently, there�s a breakdown in communication.
    It doesn�t do us very much good, if we have a uniform procedure, 
if people that need to access it don�t know about it.
    So while I think it�s very good that they added more people and 
their website is going to be updated, but, you know if you�re not 
computer savvy, we may not be able to get that information to the 
people that need it.
    So if I could ask Mr. Wannemacher to give us a better idea next 
time, or perhaps communicate with me how we�re going to be 
communicating with the funeral directors across the country, that 
might be a good thing.
    Mr. Miller. One, if I might, my comments were directly relating 
to Arlington.  They were not relating to any other national cemeteries, 
but Arlington specifically.
    Ms. Berkley. I think he was trying to get a hold of Arlington and 
 couldn�t.  I think that was the issue.
    But nonetheless, it doesn�t matter.  If it�s not working in one 
place, it may not be working in another, and if we have the procedure, 
let�s inform everybody that we have the procedure.
    General Beavers, I agree with you that the $32 million is simply 
    not adequate.
    The needs are dramatic, and as you know, and according to the 
    testimony that I reviewed, veterans� burials are going to peak in 
    the year 2008, I believe, and the $32 million proposed is simply 
    not adequate, and I would hope that we would look into the 
    possibility of beefing that up to the $50 million level that has 
    been proposed.  I think it�s important.
    I also want to talk to you about plot allowance.
    I have reviewed the H.R. 831, the legislation that increases the 
    plot allowance that you spoke of, and it goes from 300 to 1,000.
    I have another piece of legislation that Mr. Jones spoke of, and 
    the reason for the numbers in my legislation is because it is tied 
    to inflation and tied to what the numbers were in 1973, so it has 
    some sense, rather than an arbitrary number which, according to 
    your testimony, is approximately half of the cost of the burial, 
    and we wouldn�t need the state operational money as much if we had 
    a decent plot allowance that at least, at the very least 
    represented what Congress intended initially in 1973, and it makes 
    no sense to me that we�re not keeping up with inflation; because 
    we�re not giving anyone an additional benefit, we�re just not 
    eroding any of the benefit, either.
    So I would urge all of you to speak to your Members of Congress 
    and people you know about H.R. 805. and if you could support that, 
    and urge them to do that, maybe we could take care of this.  I 
    think it would help a lot. 
    I know with perhaps the possible exception of the state of Nevada, 
    which is running a rather obscene surplus at this time -- God 
    bless the gaming industry -- most states that I am aware of are 
    running serious deficits and have constitutional provisions that 
    say that they have to have a balanced budget.
    And I quite agree with you, General, that when the veterans are 
    competing with the educational needs of their students and their 
    school systems that are all hurting, and Medicaid is going through 
    the roof, and we have very serious issues on the state level, that 
    unfortunately, veterans� needs, especially for burials, tends to, 
    in lists 
of priorities, moves further down to the bottom.
    So if we could increase the burial plot allowance, we might be 
    able to alleviate the need for additional operational money from 
    the states, particularly since most of the states don�t have the 
    money to allocate, although they will have the best of intentions.
    I know that they agonize over this, but when they have children 
    and sick people to deal with, sometimes veterans funding for 
    burial of our veterans doesn�t come front and center.
    I like the idea of having an endowment.  I�m not sure we�ll be 
    able to get that accomplished, but it certainly makes good common 
    sense, which may be one of the reasons why it doesn�t get passed 
    this year, but it certainly is something that we should explore.
    I was not here in 1990, but it occurs to me you said it�s almost 
    cruel that we took away that, that Congress took away that $150 
    and the marker allocation.
    I don�t think it�s almost cruel.  I think it�s outrageously cruel, 
    and I would like to see that reinstated and will introduce 
    legislation.  I�ll commit that to you, with the hope that the 
    Chairman will join with us, because there�s no excuse for that 
    whatsoever.
    And when I met with the families, as I spoke of in my opening 
    statement, when I was first a candidate, these were the issues 
    that they were bringing to my attention.  They were painful in 
    1997.  They�re totally unacceptable, particularly given the fact 
    that we�re at war now.
    One other issue that I wanted to bring up, and I think that was 
    General Beaver�s testimony regarding the National Guard and 
    Reservists being buried in the state cemeteries.
    Sixty percent of Nevada�s National Guard is now deployed in Iraq 
    and Afghanistan.  There�s going to be deaths, and they will, 
    even if they don�t make the ultimate sacrifice, they will have 
    served this nation with distinction under extraordinarily 
    difficult conditions.  They deserve to be buried in those state 
    cemeteries, and I would hope that we could make a change and 
    allow that to happen; so I agree with you wholeheartedly on 
    that.
    I thank you all very much.  It was not only most informative, but 
    wonderful, both panels, wonderful.  I appreciate your coming and 
    giving your time to us.
    Mr. Miller. Thank you very much.
    I would say that budget reconciliation, which was what was going 
    on in 1990, is not an easy process.  It�s certainly not pretty 
    to go through, and I�m glad that the Ranking Member does agree 
    with me that those that were in control in 1990 never should 
    have done what they did in the first place.
    I do want to say that I am pleased, as our Ranking Member is, 
    that you all came to testify today.  It�s very important to us. 
    That�s why we made it our first hearing.
    I also want to say thank you to Secretary Wannemacher for staying 
    the entire time.  You very easily could have got up and moved 
    on to something different.
    We are very much appreciative of you staying here. It shows 
    your personal level of commitment, and the Committee certainly 
    thanks you.
    You know, our final gesture to servicemembers and veterans is 
    burial in a national cemetery, and we owe them the dignity that 
    they have earned through service to our nation.
    Ms. Berkley and I both, and this entire Subcommittee, look 
    forward to working with you in the future to ensure that our 
    veterans receive a fitting final tribute.
    Representative Brown-Waite, I do want to add, was unable to 
    be here.  She sent a letter to the Committee.
    As we all do, we were stacked up, she has a statement for the 
    record. 
    [The statement of Hon. Ginny Brown-Waite appears on p.  32]
 
    Mr. Miller. Also, some of the panel members asked that their 
    full statements be entered into the record.  That will be done.
    So without objection, and without anything further, this 
    hearing is adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]

</pre></body></html>
